PROOF OF SERVICE
I, the Undersigned, hereby certify that a True and Correct copy of my Corrected
Petition for Writ of Certiorari was filed upon the Clerk of the United States Supreme
Court and the District Attorney of Wayne County Pennsylvania. The Copies were mailed
within the (60) day time period under Rule 14.5, and the Prisoner Mail Box Rule. Such
service satisfies the requirements of the Rules of Appellate Procedure.

Respectfully Submitted,

Anthony Buonaiuto (III)
(LT-8967)
S.C.I. Waymart
11 Farview Drive
Waymart, PA 18472

Dated: September 1, 2020

1

